HHS/OIG-Audit--"Operation Restore Trust Audit of Arbors at Bayonet Point Skilled Nursing Facility, Hudson, Florida, (A-04-96-01146))"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Operation Restore Trust Audit of Arbors at Bayonet Point Skilled Nursing Facility, Hudson, Florida," (A-04-96-01146)
January 28, 1997
Complete
Text of Report is available in PDF format (1.23 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of the Operation Restore Trust audit of the Arbors at Bayonet Point Skilled Nursing Facility
(SNF) in Hudson, Florida. The objective of the audit was to determine whether charges billed to the Medicare Fiscal Intermediary
were allowable.
Based on the audit results, we questioned $113,547 of $1,072,765 (10.6%) in Medicare charges reported by the SNF. As can
be seen in Appendix A, the amount questioned is comprised of $55,415 of charges for which the SNF could not produce adequate
supporting documentation, $37,602 for services which were not reasonable or medically necessary, and $20,530 for services
provided individuals who did not meet pre-admission requirements. We attributed the noted discrepancies to poor administrative
internal controls.